Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 ACCURACY OF PART D PLANS'
    DRUG PRICES ON THE
MEDICARE PRESCRIPTION DRUG
       PLAN FINDER




                    Daniel R. Levinson
                     Inspector General

                       July 2009
                     OEI ·03-07~00600
                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                              S U M M A R Y


                  OBJECTIVE
                  To determine whether selected Part D plans’ drug prices displayed on
                  the Medicare Prescription Drug Plan Finder (Plan Finder) accurately
                  reflect actual drug costs on Part D claims.


                  BACKGROUND
                  The Medicare prescription drug program, known as Medicare Part D,
                  provides an optional prescription drug benefit for all Medicare
                  beneficiaries. Many of the beneficiaries who choose to enroll in Part D
                  drug plans must pay premiums; deductibles; prescription drug
                  copayments; and, during the coverage gap phase of the benefit, total
                  prescription drug costs. Therefore, plans’ drug prices are a significant
                  factor to beneficiaries selecting a plan. Drug prices on Plan Finder that
                  do not reflect actual drug costs may cause beneficiaries to enroll in a
                  plan based on incorrect information, incur unexpected costs, or decline
                  to enroll in a Part D plan altogether.

                  The Centers for Medicare & Medicaid Services (CMS) developed Plan
                  Finder as an online tool to help beneficiaries compare and select Part D
                  plans. Beneficiaries may view estimated plan and drug costs for
                  individual plans by entering information about the prescription drugs
                  that they take. After entering this information in Plan Finder,
                  beneficiaries may conduct a general search to find the least expensive
                  plan for their needs. Beneficiaries may also elect to view estimated plan
                  and drug cost information for the specific pharmacy where they plan to
                  fill their prescriptions. For this review, we conducted general rather
                  than pharmacy-specific searches in Plan Finder. At the time of our
                  review, both CMS and AARP (formerly the American Association of
                  Retired Persons) recommended that conducting a general search rather
                  than a pharmacy-specific search could improve a beneficiary’s ability to
                  find the least expensive plan.

                  To determine whether Part D plans’ drug prices displayed on Plan
                  Finder accurately reflect actual drug costs, we compared plans’ retail
                  drug prices listed on Plan Finder for 10 drugs commonly used by seniors
                  to drug costs on corresponding prescription drug event (PDE) claims for
                  the same period. In this report, “actual drug costs” represent the sum of
                  the “Ingredient Cost Paid” and “Dispensing Fee Paid” fields on PDE
                  claims. We collected drug prices on Plan Finder between September 24

OEI-03-07-00600   ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER   i
E X E C U T I V E                  S U           M M A R Y


                   and October 7, 2007. We obtained PDE claims with dates of service for
                   this period in March 2008.


                   FINDING
                   Drug prices posted on Plan Finder generally exceeded actual drug
                   costs, frequently by large amounts. Plan Finder indicates on the plan
                   drug details screen that “drug costs displayed are only estimates” and
                   that “actual costs at the pharmacy may vary slightly.” However, Plan
                   Finder drug prices were 28 percent (or $18) higher than actual drug
                   costs at the median for the 10 drugs included in our review.
                   Drug prices posted on Plan Finder were higher than actual drug costs
                   on corresponding PDE claims for 92 percent of all claims in our review.
                   For 19 percent of these claims, Plan Finder prices were more than
                   100 percent higher than actual drug costs. Plan Finder prices were
                   50 to 100 percent higher than actual drug costs for another 30 percent of
                   claims.

                   Drug prices posted on Plan Finder were less than actual drug costs on
                   corresponding PDE claims for 7 percent of all claims in our review. For
                   68 percent of these claims, Plan Finder drug prices were within
                   10 percent of the actual costs on corresponding PDE records. Plan
                   Finder prices equaled actual drug costs for 1 percent of the claims
                   reviewed.

                   Percentage differences between Plan Finder prices and actual costs
                   were generally greater for the generic drugs in our review, while dollar
                   differences were greater for the brand-name drugs.


                   RECOMMENDATIONS
                   Medicare beneficiaries use Plan Finder to compare and select Part D
                   plans that best fit their prescription drug needs as well as their health
                   care budgets. The monthly prescription drug cost estimates that Plan
                   Finder displays make up part of the estimated annual cost of a Part D
                   plan, along with deductible and premium costs. For Plan Finder to
                   serve its intended purpose, the prescription drug price information
                   should closely reflect beneficiaries’ actual drug costs. However, our
                   finding suggests that when using a general search to find the least
                   expensive plan, beneficiaries may not have the most accurate drug price
                   information on which to base their selection of a Part D plan.



 OEI-03-07-00600   ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                 ii
E X E C U T I V E                  S U           M M A R Y


                   In an April 2008 memorandum to Part D plans, CMS outlined a detailed
                   list of quality assurance checks that it performs and that it expects plans to
                   perform on the data that plans submit for posting on Plan Finder. The
                   application of these data checks to plans’ drug price data may have
                   increased the accuracy of prices displayed on Plan Finder since the period
                   of our review. However, the list of data checks that CMS provided did not
                   include comparing plans’ drug prices to actual costs on prescription drug
                   claims.

                   To ensure that drug prices displayed on Plan Finder are reasonably
                   accurate estimates of beneficiaries’ actual drug costs, we recommend that
                   CMS:
                   Ensure that plans’ drug prices displayed on Plan Finder accurately reflect
                   actual drug costs on Part D claims. CMS may want to consider using PDE
                   claims to monitor the accuracy of a sample of Part D plans’ drug prices
                   displayed on Plan Finder at regular intervals during the coverage year.

                   As an immediate measure to ensure that beneficiaries are aware of
                   potential significant discrepancies between plans’ drug prices displayed on
                   Plan Finder and actual drug costs, we recommend that CMS:
                   Add a disclaimer to the Plan Finder plan search results screen indicating
                   that drug cost estimates may differ more than “slightly” from actual drug
                   costs.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with the Office of Inspector General’s recommendation
                   that it ensure that Part D plans’ drug prices displayed on Plan Finder
                   accurately reflect actual drug costs. CMS did not concur with OIG’s
                   recommendation that it add a disclaimer to the Plan Finder plan search
                   results screen indicating that drug cost estimates may differ more than
                   “slightly” from actual drug costs.

                   CMS stated that OIG should have used pharmacy-specific Plan Finder
                   prices and compared these prices to drug costs on PDE claims because
                   the drug prices and dispensing fees that plans negotiate with individual
                   pharmacies can vary widely. CMS, therefore, stated that OIG’s
                   methodology is flawed, that OIG’s findings are false and misleading,
                   and that the OIG report substantially overestimates the variation
                   between point-of-sale drug prices and prices displayed on Plan Finder
                   because OIG conducted a general search rather than a


 OEI-03-07-00600   ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                 iii
E X E C U T I V E                  S U           M M A R Y


                   pharmacy-specific search in Plan Finder. According to CMS, its
                   analysis using a pharmacy-specific search found that 39 percent of
                   claims did not match the pharmacy-specific Plan Finder prices and
                   20 percent of claims differed from corresponding Plan Finder prices by
                   more than 5 percent.

                   By choosing to conduct a general search in Plan Finder, we employed
                   the same method that beneficiaries using Plan Finder would have
                   employed to find the least expensive plan for their needs. At the time of
                   our review, CMS did not advise or recommend to beneficiaries that they
                   conduct pharmacy-specific searches in Plan Finder.
                   While CMS did not concur with the recommendation to add a disclaimer
                   on Plan Finder, it indicated that it will revise language on the Plan
                   Finder Web site “to encourage beneficiaries to select the pharmacy they
                   currently use in order to get more precise [point-of-sale] pricing.” In
                   doing so, CMS acknowledged that Plan Finder drug price estimates
                   displayed from a general search, rather than a pharmacy-specific
                   search, may not be as accurate. The revised language addresses, in
                   part, our concerns about raising beneficiaries’ awareness of potential
                   significant discrepancies between drug prices displayed on Plan Finder
                   and actual drug costs.




 OEI-03-07-00600   ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                 iv
Δ   T A B L E          O F                C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDING................................................... 9

                   Drug prices posted on Plan Finder generally exceeded actual

                   drug costs, frequently by large amounts . . . . . . . . . . . . . . . . . . . . . 9 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                   Agency Comments and Office of Inspector General Response . . . 14 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                   A: Methodology for Selecting ZIP Codes for Medicare 

                   Prescription Drug Plan Finder Searches . . . . . . . . . . . . . . . . . . . . 16 


                   B: Methodology for Selecting Prescription Drug Event Data for 

                   Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 


                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 





               ACCURACY    OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER                            ii
Δ      I N T R O D U C T I O N


                      OBJECTIVE
                      To determine whether selected Part D plans’ drug prices displayed on
                      the Medicare Prescription Drug Plan Finder (Plan Finder) accurately
                      reflect actual drug costs on Part D claims.


                      BACKGROUND
                      The Medicare Prescription Drug, Improvement, and Modernization Act
                      of 2003 (MMA) established Medicare Part D to provide an optional
                      prescription drug benefit for all Medicare beneficiaries. Private
                      sponsors administer the benefit through Part D drug plans.
                      Prescription drug prices are a significant factor to beneficiaries choosing
                      a Part D plan. Inaccurate drug prices on Plan Finder may cause
                      beneficiaries to enroll in a plan based on incorrect information, incur
                      unexpected costs, or decline to enroll in a Part D plan altogether.

                      The Centers for Medicare & Medicaid Services (CMS) developed Plan
                      Finder as an online tool to help beneficiaries compare and select Part D
                      plans. Beneficiaries may view estimated plan and drug costs for
                      individual plans by entering information about the prescription drugs
                      that they take. After entering this information in Plan Finder,
                      beneficiaries may conduct a general search to find the least expensive
                      plan for their needs. Beneficiaries may also elect to view estimated plan
                      and drug cost information for only the specific pharmacy where they
                      plan to fill their prescriptions. For this review, we conducted general
                      rather than pharmacy-specific searches in Plan Finder.
                      Part D Benefit Structure and Costs
                      Medicare beneficiaries may enroll in either a standalone prescription
                      drug plan (PDP) or a Medicare Advantage plan that provides a
                      prescription drug benefit as well as other health care benefits. As of
                      September 2008, 26 million beneficiaries were enrolled in Part D plans.
                      Two-thirds of these beneficiaries were enrolled in PDPs. 1
                      Beneficiaries’ costs and benefits under Medicare Part D vary by drug
                      plan. Drug plan sponsors are permitted to offer plans with alternative
                      benefits that are actuarially equivalent to the standard Part D benefit.
                      Part D plans may also offer enhanced plan benefit packages.



                         1 CMS, “Monthly Contract and Enrollment Summary Report,” September 2008.
                      Available online at http://www.cms.hhs.gov/MCRAdvPartDEnrolData/. Accessed on October
                      6, 2008.



    OEI-03-07-00600   ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                          1
I N T R O D        U C T       I O N

                    The standard annual Part D drug benefit in 2008 required beneficiaries
                    to pay a $275 deductible and 25-percent coinsurance until drug spending
                    by both the drug plan and beneficiary totaled $2,510. At that point,
                    beneficiaries entered a “coverage gap.” During the coverage gap phase,
                    beneficiaries paid 100 percent of their drug costs. The catastrophic
                    coverage phase began when beneficiaries’ out-of-pocket costs reached
                    $4,050. Once that threshold was reached, beneficiaries paid 5 percent of
                    their drug costs as coinsurance.
                    Part D Drug Prices
                    Prescription drug prices vary across plans and pharmacies because plan
                    sponsors individually negotiate with pharmacies to set pharmacy
                    reimbursement amounts and with drug manufacturers to obtain rebates
                    or other discounts. The MMA requires sponsors to provide their
                    enrollees access to negotiated prices. Pursuant to 42 CFR § 423.100,
                    negotiated prices mean prices for covered Part D drugs that: (1) are
                    available to beneficiaries at the point of sale at network pharmacies;
                    (2) are reduced by those discounts, direct or indirect subsidies, rebates,
                    other price concessions, and direct or indirect remunerations that the
                    Part D sponsor has elected to pass through to Part D enrollees at the
                    point of sale; and (3) include any dispensing fees.
                    Part D plans’ drug prices may have a significant impact on the cost of
                    the Part D benefit to beneficiaries. Plans’ drug prices significantly affect
                    beneficiaries’ out-of-pocket expenses in the deductible and coverage gap
                    phases of the benefit because during those phases, beneficiaries are
                    responsible for the full costs (i.e., negotiated prices) of their drugs. In
                    addition, these prices affect how quickly beneficiaries meet plan
                    deductibles and reach the Part D coverage gap and catastrophic
                    coverage phases. Plans’ drug prices also affect beneficiaries’ expenses
                    when copayments are a percentage of prescription costs rather than a
                    flat fee. As drug prices rise, these copayments also rise.
                    Medicare Prescription Drug Plan Finder
                    Pursuant to 42 CFR §§ 423.48 and 423.505(f)(2), Part D plans must
                    submit information that enables CMS to provide current and
                    prospective beneficiaries with the information that they need to choose a
                    Part D plan. The public may access this information using CMS’s Plan
                    Finder on the Medicare Web site. Plan Finder is an online tool to assist
                    beneficiaries and others, such as family members and State Health
                    Insurance Assistance Program counselors, to compare Part D drug
                    plans. Plan Finder displays information about prescription drug
                    coverage and estimated costs under individual plans.


 OEI-03-07-00600    ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                  2
I N T R O D        U C T       I O N

                    Users may access Plan Finder on the Medicare Web site at
                    http://www.medicare.gov/. Users follow a series of steps in Plan Finder
                    to personalize their drug plan search by entering information such as
                    ZIP Codes and answering questions about drug and health coverage.
                    Users may view estimated plan and drug costs for individual plans by
                    entering information about the prescription drugs that they take,
                    including drug names, dosage amounts, and monthly quantities.
                    Beneficiaries may also elect to view estimated plan and drug costs for
                    only the specific pharmacy where they plan to fill their prescriptions.
                    However, both CMS and AARP (formerly the American Association of
                    Retired Persons) recommended conducting a general search, rather than
                    a pharmacy-specific search, to improve a beneficiary’s ability to find the
                    least expensive plan.

                    Based on information entered by the user, Plan Finder will generate a
                    list of plans in the user’s area. By default, the list of plans is ordered by
                    the estimated annual cost of each plan, which includes prescription drug
                    costs. This list displays the name of each plan, its identification
                    number, estimated annual cost, monthly drug premium, annual
                    deductible, coverage gap information, and number of network
                    pharmacies.

                    Users may view more details about each plan on the list by clicking on
                    the name of an individual plan. For each of the prescription drugs that
                    the user entered, Plan Finder displays details such as monthly drug
                    costs for preferred retail and mail-order pharmacies. 2 Plan Finder
                    includes disclaimers on the plan details screen that “the drug costs
                    displayed are only estimates” and that “actual costs at the pharmacy
                    may vary slightly.”
                    Data for Plan Finder
                    CMS currently requires Part D plans to submit updated drug price data
                    to a CMS contractor every 2 weeks for posting on Plan Finder. Plans
                    must submit files that contain prices for all drugs included on plans’
                    CMS-approved formularies. CMS identifies a formulary reference
                    national drug code (NDC), or proxy NDC, for each unique drug/dosage
                    combination and requires plans to submit Plan Finder prices for the
                    proxy NDCs only.

                    The CMS contractor receives plans’ drug price files, processes the files,
                    and uploads the files to Plan Finder every 2 weeks. If no price updates


                      2 Individual drug plans’ drug prices displayed on Plan Finder do not include sales tax.




 OEI-03-07-00600    ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                                3
I N T R O D        U C T       I O N

                    occur for a 2-week period, plans may electronically certify that there are
                    no updates, and the previous drug price data are maintained. If plans
                    do not submit pricing for a specific drug, Plan Finder will display
                    average wholesale prices (AWP) minus 10 percent for brand-name drugs
                    and AWP minus 30 percent for generic drugs plus a standard dispensing
                    fee. 3 If CMS finds errors with the data that a plan submits for Plan
                    Finder, it will suppress the plan’s pricing data from display until the
                    plan submits corrected data. 4
                    CMS issued a memorandum to all Part D plan sponsors in April 2008
                    regarding the importance of accurate Plan Finder data. CMS noted that
                    the “submission of accurate data [is] critically important to ensure that
                    Medicare beneficiaries obtain correct and complete information . . . to
                    make the most informed choices.” The memorandum provided a
                    detailed list of the quality assurance checks that CMS performs and
                    expects plans to perform on the data that plans submit for posting on
                    Plan Finder. The quality assurance checks of drug price data include
                    identifying missing files and values, comparing brand-name to generic
                    prices for the same drug, and comparing drug prices to multiples of
                    AWPs. 5 The list of quality assurance checks does not include comparing
                    the drug prices that plans submit for posting on Plan Finder to drug
                    costs on prescription drug claims.
                    Prescription Drug Event Data
                    Part D plans are required to submit electronic records for all covered
                    prescriptions filled by their enrollees to CMS. Each record, called a
                    prescription drug event (PDE) record, contains drug cost and payment
                    data that enable CMS to administer the Part D benefit. CMS also uses
                    PDE records for quality oversight and Medicare program integrity
                    activities.

                    In 2007, the PDE record contained 39 required data fields, including
                    identification data for the beneficiary, plan, pharmacy, and prescribing


                       3 AWPs are listed in commercial publications, derived from manufacturer-reported data
                    for both brand-name and generic drugs, and not defined in law or regulation.
                      4 “2008 Plan Year Pricing Data Requirements.” Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/MPDPFDataRequirements
                    SubmissionGuidelines.pdf. Accessed on October 6, 2008.
                      5 “Quality Assurance Checks for Data Submitted for Posting on the Medicare Prescription
                    Drug Plan Finder Tool.” Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovContra/HPMSGH/list.asp. Accessed on
                    June 9, 2008. As specified in this memorandum, CMS identifies “NDC unit costs that are
                    priced at 25 times greater than [the] highest AWP” and “NDC unit costs that are priced at
                    25 times less than [the] lowest AWP.”



 OEI-03-07-00600    ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                               4
I N T R O D        U C T       I O N

                    physician; as well as prescription drug data, such as the NDC, quantity
                    dispensed, number of days supplied, and date filled. The sum of two
                    payment information fields on the PDE record, “Ingredient Cost Paid”
                    and “Dispensing Fee Paid,” is the amount paid to the pharmacy for the
                    drug and for dispensing the medication.


                    METHODOLOGY
                    To determine whether selected Part D plans’ drug prices displayed on
                    Plan Finder reflect actual drug costs on Part D claims, we compared the
                    retail prices listed on Plan Finder to drug costs on corresponding PDE
                    claims for the same period. 6 Plans update the drug prices that they
                    submit for Plan Finder every 2 weeks. We collected drug prices on Plan
                    Finder for the period September 24 to October 7, 2007. In March 2008,
                    we obtained PDE claims with dates of service from September 24 to
                    October 7, 2007.
                    Data Collection
                    Plan Finder drug prices. We used 2005 Pennsylvania Pharmaceutical
                    Assistance Contract for the Elderly (PACE) data to select the five most
                    commonly used single-source brand-name drugs and the five most
                    commonly used generic drugs among seniors. 7 Table 1 contains the
                    names and strengths for the 10 prescription drugs we selected.



                     Table 1: Prescription Drugs Selected for Plan Finder Searches

                     Generic Drug and Strength                                             Brand-Name Drug and Strength

                     Amlodipine besylate                                       5 mg        Fosamax                        70 mg

                     Furosemide                                                40 mg       Lipitor                        10 mg

                     Hydrochlorothiazide                                       25 mg       Nexium                         40 mg

                     Metoprolol tartrate                                       50 mg       Plavix                         75 mg

                     Simvastatin                                               20 mg       Protonix                       40 mg




                      6 In this report, “actual drug costs” represent the sum of the “Ingredient Cost Paid” and
                    “Dispensing Fee Paid” fields on PDE claims.
                      7 The PACE program was implemented in Pennsylvania in 1984 to help qualified
                    residents aged 65 and older pay for prescription drugs. A June 2006 Families USA report
                    entitled “Big Dollars, Little Sense: Rising Medicare Prescription Drug Prices” states that
                    “Because of the [PACE] program’s size and the abundance of claims data, it is commonly
                    used to estimate prescription drug use among older Americans.”



 OEI-03-07-00600    ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                                                  5
I N T R O D        U C T       I O N 


                    Users must enter a ZIP Code to begin a Plan Finder plan search. We
                    selected two ZIP Codes from each of 34 PDP regions, for a total of 68 ZIP
                    Codes to enter into Plan Finder. 8 A detailed description of the ZIP Code
                    selection process is provided in Appendix A.

                    Using the 68 ZIP Codes and drug and dosage information for the
                    10 prescription drugs, we conducted general plan searches for drug
                    prices on Plan Finder. We did not conduct pharmacy-specific searches.
                    We identified and recorded preferred retail pharmacy prices for the
                    10 selected drugs for every Part D plan in each ZIP Code. 9 Plan Finder
                    displayed from 45 to 66 different plans for each ZIP Code we entered for
                    the plan searches. We collected 37,300 unique drug prices.

                    Actual drug costs on prescription drug event claims. We obtained PDE
                    claims processed from September 2007 through December 2007 from
                    CMS and created a file of all standalone PDP drug claims with dates of
                    service from September 24 to October 7, 2007. This file contained
                    29 million claims. We limited the PDE data file to ensure that PDE
                    drug claims corresponded to the Plan Finder drug price information we
                    collected. A detailed description of the process we used to identify the
                    PDE claims for our analysis is provided in Appendix B.

                    After identifying the PDE claims for our review, we matched these PDE
                    claims to plans’ drug prices posted on Plan Finder using the following
                    data: ZIP Code, Part D plan contract number, Part D plan benefit
                    package number, and drug name and dosage amount. We identified
                    19,628 PDE claims that corresponded to 5,337 unique drug prices
                    collected from Plan Finder.
                    Analysis of Plan Finder Prices and Actual Drug Costs
                    We determined whether and to what extent preferred retail pharmacy
                    drug prices collected from Plan Finder differed from actual drug costs on
                    corresponding PDE claims. We summed the “Ingredient Cost Paid” and
                    “Dispensing Fee Paid” fields on each PDE claim to calculate actual drug
                    costs. 10 We calculated the dollar and percentage differences between


                      8 There are 39 standalone drug plan regions. Five of these regions include one U.S.
                    territory. We excluded the U.S. territories from our review.
                      9 The Plan Finder displays drug prices available at plans’ preferred network pharmacies
                    by default if the user does not select a specific pharmacy. As specified in 42 CFR § 423.100,
                    “Preferred pharmacy means a network pharmacy that offers covered Part D drugs at
                    negotiated prices to Part D enrollees at lower levels of cost-sharing than apply at a
                    non-preferred pharmacy under its pharmacy network contract with a Part D plan.”
                      10 We did not include sales tax in our calculation of actual drug costs on PDE claims
                    because plans’ drug prices displayed on Plan Finder do not include sales tax.



 OEI-03-07-00600    ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                                6
I N T R O D            U C T          I O N 


                          the Plan Finder drug price and the actual drug cost for each PDE claim.
                          We calculated an overall median dollar difference and overall median
                          percentage difference between Plan Finder prices and actual drug costs.
                          We examined the magnitude and direction of these differences and
                          reviewed dollar and percentage differences by drug and drug type.
                          Selected drug, price, and cost fields from two of the claims in our
                          analysis are presented in Table 2.



       Table 2: Drug, Price, and Cost Fields for Two Claims
                                                                                                        Actual           Dollar
                                                       National Drug                  Plan Finder                                 Percentage
       Plan ID                   Drug Name                                                               Drug       Difference
                                                               Code                         Price                                  Difference
                                                                                                         Cost    (Price – Cost)
       S####-###                    Fosamax              00006003144                         $88.44     $83.27           $5.17             6%

       S####-###        Hydrochlorothiazide              00172208380                           $5.44    $10.77          -$5.33            -49%
      Source: Office of Inspector General (OIG) review of selected Plan Finder drug prices and actual drug costs on corresponding
      PDE claims.



                          To determine whether prices displayed on Plan Finder would accurately
                          reflect actual drug costs for the reference NDCs that plans must use to
                          submit drug prices to CMS, we repeated our analysis of Plan Finder
                          prices and actual costs using only PDE claims for the reference NDCs
                          for the 10 drugs in our review.
                          Review of Average Wholesale Prices for 10 Drugs
                          The data checks that CMS performs on the drug price files that Part D
                          plans submit for posting on Plan Finder include comparing drug prices
                          to multiples of AWPs. 11 We examined quarterly AWPs for the 10 drugs
                          in our review to determine whether prices for these drugs were
                          particularly volatile in 2007. We identified quarterly AWPs reported in
                          the Red Book for NDCs for the 10 drugs and determined whether and to
                          what extent AWPs for these NDCs fluctuated during 2007. Our review
                          revealed that AWPs for these NDCs were not volatile in 2007. The
                          AWPs for 87 percent of NDCs remained constant. The AWPs for
                          13 percent of NDCs changed once during 2007. All of the AWPs that
                          changed were for brand-name drug NDCs, and all but one of the changes


                            11 “Quality Assurance Checks for Data Submitted for Posting on the Medicare
                          Prescription Drug Plan Finder Tool.” Available online at
                          http://www.cms.hhs.gov/PrescriptionDrugCovContra/HPMSGH/list.asp. Accessed on
                          June 9, 2008. As specified in this memorandum, CMS identifies “NDC unit costs that are
                          priced at 25 times greater than [the] highest AWP” and “NDC unit costs that are priced at
                          25 times less than [the] lowest AWP.”



 OEI-03-07-00600          ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                                                      7
I N T R O D        U C T       I O N

                    reflected an increase in the value of the AWP. The median of percentage
                    changes in AWP for these NDCs was 3 percent.
                    Limitations
                    We did not review Part D plans’ premiums, copayments, or other price
                    information displayed on Plan Finder. We did not verify the accuracy or
                    completeness of CMS’s drug claims data with CMS or Part D plan
                    sponsors. The results presented in the Findings section of the report are
                    limited to the Plan Finder prices and PDE claims that we reviewed.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-07-00600    ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                  8
Δ   F I N D I N G
                                                       Part D plans’ drug prices posted on
                  Drug prices posted on Plan Finder
                                                       Plan Finder were a median of
          generally exceeded actual drug costs,
                                                       28 percent (or $18) higher than
                    frequently by large amounts        actual costs on PDE claims for the
                   10 drugs in our review. Although Plan Finder indicates that “drug costs
                   displayed are only estimates” and that “actual costs at the pharmacy
                   may vary slightly,” our comparison revealed that Plan Finder prices
                   were not accurate estimates of actual drug costs for the majority of the
                   claims in our review.
                      Plan Finder prices differed from actual drug costs for 99 percent of the
                      claims reviewed and equaled actual drug costs for 1 percent of the
                      claims reviewed. When we confined our analysis to PDE claims for just
                      the reference or proxy NDCs for the 10 drugs, Plan Finder prices
                      differed from actual costs for 98 percent of claims. Plans’ drug prices
                      displayed on Plan Finder were a median of 22 percent (or $17) higher
                      than actual costs on PDE claims for the reference NDCs.

                      As shown in Chart 1 below, drug prices posted on Plan Finder exceeded
                      actual drug costs for 92 percent of the claims in our review and were less
                      than actual drug costs for 7 percent of claims. Percentage differences
                      between Plan Finder prices and actual costs were generally greater for
                      the generic drugs in our review, while dollar differences were greater for
                      the brand-name drugs reviewed.
                      Chart 1. Percentage of Claims on Which Plan Finder Prices Differed From Actual Drug
                      Costs

                                                            1%

                                                      7%                                            Plan Finder Prices
                                                                                                    Exceeded Actual Costs


                                                                                                    Plan Finder Prices Were
                                                                                                    Less Than Actual Costs


                                                              92%
                                                                                                    Plan Finder Prices
                                                                                                    Equaled Actual Costs




                      Plan Finder prices exceeded actual costs for 92 percent of drug claims
                      Drug prices posted on Plan Finder were higher than actual drug costs on
                      corresponding PDE claims for 92 percent of all claims in our review.

OEI-03-07-00600       ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                                              9
F   I N D I N G

                            Plan Finder prices were a median of 40 percent (or $27) higher than
                            actual drug costs for these claims. Plan Finder prices ranged from a
                            minimum of less than 1 percent higher than actual drug costs to a
                            maximum of 3,157 percent higher than actual drug costs on a
                            corresponding PDE claim. In dollar terms, Plan Finder prices ranged
                            from a minimum of less than $1 higher than actual drug costs to a
                            maximum of $201 higher than actual drug costs.

                            For 19 percent of the claims on which Plan Finder prices exceeded
                            actual costs, Plan Finder prices were more than double actual drug
                            costs. Plan Finder prices for claims in this group were 365 percent (or
                            $84) higher than actual drug costs at the median. Plan Finder prices
                            were 50 to 100 percent higher than actual drug costs for another
                            30 percent of claims.

                            As shown in Table 3, percentage differences between Plan Finder prices
                            and actual drug costs were much greater for claims on which Plan
                            Finder prices exceeded actual drug costs than for claims on which Plan
                            Finder prices were less than actual drug costs. For example, for
                            49 percent of claims on which Plan Finder prices exceeded actual drug
                            costs, prices were greater by more than 50 percent. In contrast, for only
                            2 percent of claims on which Plan Finder prices were less than actual
                            drug costs, prices were lower by more than 50 percent.


           Table 3: Magnitude and Direction of Percent Differences Between Plan Finder
           Prices and Actual Drug Costs
                                                Within 10           10.01 to 20          20.01 to 30       30.01 to 50      50.01 to   More than
                                                  Percent              Percent              Percent           Percent           100           100
                                               Difference           Difference           Difference        Difference       Percent       Percent
                                                                                                                         Difference    Difference

           Percentage of Claims on
                                                           8%                 13%                 27%             4%           30%          19%
           Which Plan Finder Price
                                     1
           Exceeded Actual Drug Cost

           Percentage of Claims on
                                                         68%                  15%                  3%            12%            2%            0%
           Which Plan Finder Price Was
           Less Than Actual Drug Cost

         1The percentages displayed in this row sum to more than 100 percent because of rounding.


         Source: OIG review of selected Plan Finder drug prices and actual drug costs on corresponding PDE claims. 



                            Plan Finder prices were less than actual costs for 7 percent of drug claims
                            Drug prices posted on Plan Finder were less than actual drug costs on
                            corresponding PDE claims for 7 percent of all claims in our review. Plan
                            Finder prices were a median of 5 percent (or $1.60) less than actual drug
                            costs for these claims. Plan Finder prices ranged from less than



    OEI-03-07-00600         ACCURACY    OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                                                              10
F   I N D I N G 


                      1 percent below actual drug costs to 93 percent below actual drug costs
                      on a corresponding PDE claim. In dollar terms, Plan Finder prices
                      ranged from less than $1 to $126 lower than actual drug costs on a
                      corresponding PDE claim.

                      Table 3 on the previous page shows that for 68 percent of the claims on
                      which Plan Finder prices were less than actual drug costs, Plan Finder
                      drug prices were within 10 percent of the actual costs on corresponding
                      PDE records. For another 15 percent of these claims, Plan Finder prices
                      were 10 to 20 percent less than actual drug costs.

                      Generic drugs account for 40 percent of all claims in our review, but
                      these drugs account for 71 percent of claims on which Plan Finder prices
                      were less than actual drug costs. The remaining 29 percent of claims in
                      this group were for brand-name drugs.
                      Overall, percentage differences between Plan Finder prices and actual costs
                      were greater for generics, while dollar differences were greater for
                      brand-name drugs
                      Forty percent of all claims in our review were for five generic drugs:
                      amlodipine besylate, furosemide, hydrochlorothiazide, metoprolol
                      tartrate, and simvastatin. Plan Finder prices exceeded actual costs for
                      this group of drugs by 80 percent (or $4) at the median.

                      Medians of the percentage differences between Plan Finder prices and
                      actual drug costs on corresponding PDE claims for the individual
                      generic drugs we reviewed ranged from 37 to 472 percent, as shown in
                      Table 4 on the next page. For four of the five generic drugs reviewed,
                      median dollar differences between Plan Finder prices and actual drug
                      costs ranged from $2 to $13.




    OEI-03-07-00600   ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                    11
F   I N D I N G 



                 Table 4: Percentage and Dollar Differences Between Plan Finder Prices and
                 Actual Costs for 10 Drugs
                                                                                                                    Median of Dollar
                                                                                           Median of Percentage
                                                                                                                        Differences
                 Drug Type              Drug Name                                          Differences for Claims
                                                                                                                         for Claims
                                                                                                    of Each Type
                                                                                                                      of Each Type
                                           Hydrochlorothiazide                                               37%                 $2
                                           Amlodipine besylate                                               50%                $13
                 Generic Drugs             Furosemide                                                        70%                 $3
                                           Metoprolol tartrate                                              217%                 $9
                                           Simvastatin                                                      472%                $90

                                           Fosamax                                                           11%                 $9
                                           Lipitor                                                           21%                $16
                 Brand Drugs               Protonix                                                          24%                $28
                                           Nexium                                                            26%                $37
                                           Plavix                                                            66%                $83
                Source: OIG review of selected Plan Finder drug prices and actual drug costs on corresponding PDE claims.


                           Median percentage and dollar differences between prices posted on Plan
                           Finder and actual costs on corresponding drug claims were both
                           substantially greater for the remaining generic drug, simvastatin. Plan
                           Finder prices for simvastatin exceeded actual drug costs by a median of
                           472 percent, or $90.

                           Sixty percent of all claims reviewed were for five brand-name drugs:
                           Fosamax, Lipitor, Nexium, Plavix, and Protonix. Prices posted on Plan
                           Finder were 25 percent (or $35) higher than actual costs for these
                           brand-name drugs at the median.

                           For four of the five brand-name drugs in our review, medians of the
                           percentage differences between prices posted on Plan Finder and actual
                           drug costs ranged from 11 to 26 percent. The median percentage
                           difference between Plan Finder prices and actual costs for the remaining
                           brand-name drug, Plavix, exceeded this range, with a median of
                           66 percent. Medians of the dollar differences between Plan Finder
                           prices and actual drug costs for the individual brand-name drugs in our
                           review ranged from $9 to $83.




    OEI-03-07-00600        ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                                                12
R   E C O        M M E N D A T                      I O N              S
Δ       R E C O M M E N D A T I O N S




                      Medicare beneficiaries use Plan Finder to compare and select Part D plans that
                      best fit their prescription drug needs as well as their health care budgets. The
                      monthly prescription drug cost estimates that Plan Finder displays make up
                      part of the estimated annual cost of a Part D plan, along with deductible and
                      premium costs. For Plan Finder to serve its intended purpose, the prescription
                      drug price information should closely reflect beneficiaries’ actual drug costs.

                      Our comparison of selected Part D plans’ drug prices displayed on Plan Finder
                      to actual drug costs on corresponding PDE claims revealed that Plan Finder
                      prices were not accurate estimates of actual drug costs for the majority of
                      claims in our review. Plan Finder prices were overestimates of actual drug
                      costs for most of these claims. In cases like this, beneficiaries may be pleased to
                      find that their prescription costs at the pharmacy are lower than the drug cost
                      estimates that they viewed on Plan Finder. However, our finding suggests that
                      when using a general search to identify the least expensive plan, beneficiaries
                      may not have the most accurate drug price information on which to base their
                      selection of a Part D plan.

                      In an April 2008 memorandum to Part D plans, CMS outlined a detailed list of
                      quality assurance checks that it performs and expects plans to perform on the
                      data that plans submit for posting on Plan Finder. The application of these
                      data checks to plans’ drug price data may have increased the accuracy of prices
                      displayed on Plan Finder since our review. However, the list of data checks
                      that CMS provided did not include comparing plans’ drug prices to actual costs
                      on prescription drug claims.

                      To ensure that drug prices displayed on Plan Finder are reasonably accurate
                      estimates of beneficiaries’ actual drug costs, we recommend that CMS:
                      Ensure That Plans’ Drug Prices Displayed on Plan Finder Accurately Reflect
                      Actual Drug Costs on Part D Claims

                      CMS may want to consider using PDE claims to monitor the accuracy of a
                      sample of Part D plans’ drug prices displayed on Plan Finder at regular
                      intervals during the coverage year.

                      As an immediate measure to ensure that beneficiaries are aware of potential
                      significant discrepancies between plans’ drug prices displayed on Plan Finder
                      and actual drug costs, we recommend that CMS:

                      Add a Disclaimer to the Plan Finder Plan Search Results Screen Indicating That
                      Drug Cost Estimates May Differ More Than “Slightly” From Actual Drug Costs


    OEI-03-07-00600      ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                       13
R   E C O        M M E N D A T                   I O N              S            




                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with OIG’s recommendation that it ensure that Part D
                      plans’ drug prices displayed on Plan Finder accurately reflect actual
                      drug costs. CMS did not concur with OIG’s recommendation that it add
                      a disclaimer to the Plan Finder plan search results screen indicating
                      that drug cost estimates may differ more than “slightly” from actual
                      drug costs.

                      CMS stated that OIG should have used pharmacy-specific Plan Finder
                      prices and compared these prices to drug costs on PDE claims because
                      the drug prices and dispensing fees that plans negotiate with individual
                      pharmacies can vary widely. CMS, therefore, stated that OIG’s
                      methodology is flawed, that OIG’s findings are false and misleading, and
                      that the OIG report substantially overestimates the variation between
                      point-of-sale drug prices and prices displayed on Plan Finder. The full
                      text of CMS’s comments is provided in Appendix C.

                      OIG does not agree that our methodology is flawed or that our findings
                      are false, misleading, or inflated. By choosing to conduct a general
                      search in Plan Finder, we employed the same method that beneficiaries
                      using Plan Finder were advised to employ to find the least expensive
                      plan for their needs. Our findings generate concerns about the accuracy
                      of the plan and drug cost information provided to beneficiaries who
                      choose to conduct a general search rather than a pharmacy-specific
                      search in Plan Finder. CMS’s comments about the wide variation in
                      negotiated drug prices and dispensing fees across pharmacies
                      underscore these concerns.

                      At the time of our review, CMS did not advise or recommend to
                      beneficiaries that they conduct pharmacy-specific searches in Plan
                      Finder. Both CMS and AARP recommended conducting a general
                      search rather than a pharmacy-specific search to improve a beneficiary’s
                      ability to find the least expensive plan. Guidance on the Plan Finder
                      Web site stated that “you may not find the least expensive plan if you
                      select a preferred pharmacy or pharmacies.” A Plan Finder step-by-step
                      search guide on AARP’s Web site also advised against selecting a
                      specific pharmacy because doing so “may prevent you from finding the
                      plans that are least expensive for your needs.”

                      In its comments on the draft report, CMS stated that it routinely ensures
                      that Plan Finder prices closely reflect PDE costs by conducting “in-depth
                      quality assurance checks and other longitudinal analyses.” However, all

    OEI-03-07-00600   ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                    14
R   E C O        M M E N D A T                   I O N              S

                      of these quality assurance checks focus on reviewing pharmacy-specific
                      data and do not address the issue of the accuracy of drug prices displayed
                      on Plan Finder when a general search is conducted. CMS described its
                      own analysis of a sample of PDE claims from 2007 in which CMS
                      compared PDE drug costs to Plan Finder prices. CMS matched “the
                      pharmacy for which the PDE was filled to the pharmacy for which the
                      [Plan Finder] price was displayed.” In this pharmacy-specific review,
                      CMS found that PDE drug costs did not match Plan Finder price data for
                      39 percent of claims reviewed. CMS also reported that, for 20 percent of
                      claims reviewed, PDE costs differed from corresponding Plan Finder
                      prices by more than 5 percent. These results indicate that additional
                      quality assurance checks may be necessary to ensure that prices
                      displayed on Plan Finder closely correlate to the prices paid by
                      beneficiaries at the point of sale.

                      CMS also stated that the OIG report did not take into account that
                      pharmacies often provide drugs at the lower of the negotiated price or the
                      customary price at their pharmacy. CMS raised the issue of retail
                      pharmacies’ “special low pricing”—like the Wal-Mart $4 Prescriptions
                      Program—and suggested that these prices, offered at the point of sale,
                      may account for many of the claims on which Plan Finder prices exceeded
                      actual drug costs for generic drugs. We understand that pharmacies such
                      as Wal-Mart may provide special low pricing, such as $4 generic
                      prescriptions. However, these programs do not appear to explain the
                      variation that we identified in our analysis. For the five generic drugs in
                      our review, we analyzed the PDE claims on which actual drug costs did
                      not match Plan Finder prices. We found that less than 3 percent of the
                      PDE claims had prescription costs as low as $4.

                      Finally, while CMS did not concur with the recommendation to add a
                      disclaimer on Plan Finder, it indicated that it will revise language on the
                      Plan Finder Web site “to encourage beneficiaries to select the pharmacy
                      they currently use in order to get more precise [point-of-sale] pricing.”
                      CMS deleted the language that advised Plan Finder users that they may
                      not find the least expensive plan if they select a specific pharmacy when
                      conducting their plan search. The revised language includes the
                      statement, “If you don’t pick a pharmacy, the cost that you see may be
                      different from the cost at your pharmacy.” With this statement, CMS
                      acknowledged that Plan Finder drug price estimates displayed from a
                      general search, rather than a pharmacy-specific search, may not be as
                      accurate. The revised language addresses, in part, our concerns about
                      raising beneficiaries’ awareness of potential significant discrepancies
                      between drug prices displayed on Plan Finder and actual drug costs.

    OEI-03-07-00600   ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                    15
Δ      A P P E N D I X ~ A


                  Methodology for Selecting ZIP Codes for Medicare Prescription Drug Plan
                  Finder Searches


                  Users must enter a ZIP Code into the online Medicare Prescription Drug
                  Plan Finder tool to generate a list of Part D plans and prescription drug
                  prices for those plans. We selected two ZIP Codes from each of 34 of the
                  39 Prescription Drug Plan (PDP) regions, for a total of 68 ZIP Codes to
                  enter into Plan Finder. Part D plans are offered across 39 standalone
                  PDP regions. Of the 39 regions, 25 include one State each, 6 include two
                  States each, 3 include more than two States each, and the remaining
                  5 include one U.S. territory each. We excluded the U.S. territories from
                  our review.

                  We used information contained in a 2006 Prescription Drug Event
                  (PDE) data file and a ZIP Code database to select the 68 ZIP Codes.
                  First, we accessed a data file that contained approximately 1 percent of
                  PDE data for January to October 2006. We summarized the number of
                  PDE claims by ZIP Code to determine the distribution of drug claims
                  across ZIP Codes. We then used a database from CD Light to obtain a
                  list of all U.S. ZIP Codes. 12 We grouped the ZIP Codes by State, then by
                  PDP region.

                  For each of the 25 single-State PDP regions, we selected the ZIP Code
                  with the highest number of PDE claims and randomly selected another
                  ZIP Code from the pool of all other ZIP Codes in the region.

                  For each of the six PDP regions with two States, we selected the ZIP
                  Code with the highest number of PDE claims from each of the two
                  States.

                  For each of the three PDP regions with more than two States, we
                  randomly chose two States and selected the ZIP Code with the highest
                  number of PDE claims from each of the two States. Using this
                  approach, we did not select any ZIP Codes from the following eight
                  States located in these regions: Massachusetts, Vermont, Maryland,
                  Iowa, Minnesota, North Dakota, South Dakota, and Wyoming.



                    12 CD Light, LLC, can be found online at http://www.zipinfo.com. Accessed on
                  December 11, 2008.




OEI-03-07-00600   ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                   16
Δ         A P P E N D I X ~ B


                  Methodology for Selecting Prescription Drug Event Data for Analysis


                  We obtained Prescription Drug Event (PDE) claims processed from
                  September through December 2007 from CMS and created a file of all
                  standalone Prescription Drug Plan (PDP) drug claims with dates of
                  service from September 24 to October 7, 2007. This file contained
                  29 million claims.

                  We limited the PDE data file to ensure that PDE drug claims
                  corresponded to the Plan Finder drug price information we collected, as
                  follows:

                    •	   We compiled a list of National Drug Codes (NDC) for the
                         10 selected drug/dosage combinations from Red Book and First
                         Data Bank drug compendia. We used this list of NDCs to identify
                         all PDE claims for the 10 selected drugs. PDE claims for these
                         NDCs accounted for 9 percent of all PDE claims with dates of
                         service from September 24 to October 7, 2007.

                    •	   We obtained the Centers for Medicare & Medicaid Services’ Part D
                         Pharmacy Network File to identify the status and type of
                         pharmacies on PDE claims. We used data from this file to include
                         only PDE claims for drugs purchased at preferred retail
                         pharmacies in our review.

                    •	   We included all PDE claims on which the beneficiaries’ ZIP Codes
                         matched the 68 ZIP Codes we used to conduct our Plan Finder
                         searches.

                    •	   If a PDE claim was submitted in a nonstandard format, such as a
                         beneficiary-filed claim, the “Ingredient Cost Paid” and “Dispensing
                         Fee Paid” fields may not be populated correctly. 13 Approximately
                         1.5 percent of all PDP drug claims for the 2-week period of our
                         review were submitted in a nonstandard format. We excluded
                         PDE claims that were submitted in a nonstandard format using
                         the “Non-Standard Data Format Code” field.


                    13 “Updated Instructions: Requirements for Submitting Prescription Drug Event Data
                  (PDE),” pp. 18–19. Available online at
                  http://www.cms.hhs.gov/DrugCoverageClaimsData/01_ PDEGuidance.asp. Accessed on July
                  3, 2008.



OEI-03-07-00600   ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                         17
A   P   P E N D    I X ~          B


                    •	   Plan Finder displays preferred retail pharmacy prices for a
                         1-month supply of a drug. We included PDE claims on which the
                         “Days Supply” field reflected a 1-month supply and the “Quantity
                         Dispensed” field equaled 30, except for claims for the drug
                         Fosamax. This drug is taken once per week, rather than once per
                         day. We included PDE claims for Fosamax on which the “Days
                         Supply” field reflected a 1-month supply and the “Quantity
                         Dispensed” field equaled four.




OEI-03-07-00600   ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                18
Δ      A P P E N D I X ~ C

       Agency Comments


               /   .........""
           (           ~           _D_E_P_A_R_T_ME
                                               _ _T_O_F_HE_A_L_T_H_&_I-_fUMAN               S_E_R_V- i~">~ ~ r. . . -. . . .,-:- ~_l.-
                                                                                                        ....                             __c_e_nl_ers_fo_'_M_ed_IC3_'_e_&_M_ed_lC3_ld_s_erv_lc_es_

           'S'r                                                                                 2009 APR 22 PM 3:                  Q~
                                                                                                                                               200 Independence Avenue SW
                                                                                                                                               Washington. DC 20201



                                                                                                               GENE        L

                           DATE:
                                           APR   ~ 0 2009
                          TO:              Daniel R. Levinson
                                           Inspector General

                          FROM:       O·eJ>6<aae~;&~
                                           Acting Administrator

                                 B.TECT:   Office orIn pector General (OIG) Draft Report:' Accuracy of Part D Plans' Drug
                                           Prices on the Medicare Prescription Drug Plan Finder," OEI-03-07-00600


                          Thank you for the opportunity to comment on the OIG draft report that compares drug prices
                          displayed on the Medicare Prescription Drug Plan Finder to actual drug costs on Part D claims
                          or Prescription Drug Events (PDE). After a thorough review, the Centers for Medicare &
                          Medicaid ervices (CMS) continue to have concern regarding the study s methodologies
                          fmding , and consequent recommendations.

                          It i important to note that the key objective for the Medicare Prescription Drug Plan Finder
                          (MPDPF) is to provide beneficiarie with a comparison among Medicare drug plan. Onc
                          element of that comparison is the estimated annual cost for the drugs that a beneficiary currently
                          takes. CM strives to ensure that cost comparisons are conducted fairly across Part D plans by
                          requiring sponsors to submit pricing for a rcference National Drug Code (NDC), and by
                          providing drug pricing associated with pharmacies' pecific negotiated costs. While thc MPDPF
                          wa never intended to provide a g118ranteed point of sale (PaS) price, CM ' internal analysis
                          de cribed below demonstrates that MPDPF does provide price information that is gencrally close
                          to pas prices. CMS contcnds that although MPDPF provides estimated drug costs, the OIG
                          report substantially overestimates the level of variation between pas prices and MPDPF.

                          The C      has repeatedly expressed strong concerns to OIG that the study's methodology has
                          serious limitations regarding the relationship between priee displayed n MPDPF and price
                          charged at PO . Despitc responding 10 some of our concerns, the final report s methodology
                          remain ubstanlially flawed, and consequently, OIG's findings of frequent price ditTcrcnces
                          between MPDPF and PDE data are false and misleading. The following discussion highlights
                          the errors found in OIG's methodology.

                          The main error in OIG's analysis is that pharmacy-specific PDE data were compared to non­
                          pharnlacy-specific MPDPF prices. Ln order to be consistent with the data SITucture u cd for
                          MPDPF, OIG must match pharmacy-specific drug prices for comparison because pharmacy-
                           pecific di pensing fees can vary widely, as can negotiated prices. The average




    OEI-03-07-00600                  ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                                                                                                          19
A   P   P E N D             I X         ~          C           





                      Page 2 - Daniel R. Levinson


                      minimum/maximum dispensing fees is 0.75 - $10.83 for brand name drugs and 0.84 - $11.01
                      for generic drugs. oro found the largest percentage difference in generic drugs. This is not
                      surprising given that generic drugs have a Jower total cost thus a greater impact from the
                      variance in dispensing fees. For example, for fOUI of the five generic drugs listed in the report,
                      010 found the median dollar difference to range from $2 - $13. This is to be expected, given the
                      average dispensing fee difference of over $10.00 between pharmacies within a plan for a generic
                      drug.

                      A Part 0 sponsor's drug pricing can also vary by pharmacy. The drug plans submit multiple
                      drug pricing files. The pharmacy network files submitted by the drug plans are associated with a
                      specific drug pricing file. The variance in pharmacy-specific negotiated price is lost when using
                      pharmacy-specific PDE data that are not affiliated with pharmacy-specific MPDPF pricing. For
                      example, the oro report shows a median percent difference for the generic drug furosemide (40
                      mg) of70 percent and a median dollar difference of $3. CMS finds that one Part D sponsor's
                      costs for this drug can vary across its phannacy network by a range of$I.077to 3.984. This
                      cost range would be equated to a variance of270 percent with an absolute cost difference of
                      $2.91 based solely on whether the pharmacy selected was associated with the lowest or the
                      highest negotiated cost for this Part D sponsor.

                      In addition the 010 report did not take into account th.at pharmacies often provide drugs at the
                      lesser of the negotiated price or the customary price at thcir pharmacy. Over the past several
                      years many retail pharmacy chains have begun to offer special low pricing for certain generic
                      products. Wal-Mart, one of the first retail pharmacy chains to market this type of program,
                      maintains that their $4 Prescriptions Program repre ents up to 95 percent of the prescriptions
                      written in the majority of therapeutic categories. OIO's fmdings that the PDE data more often
                      showed the beneficiary receiving lower pricing than was displayed on the MPDPF may be
                      consistent with the availability of savings offered directly by pharmacies. Cost differences that
                      are attributed to such pharmacy programs should not be construed as MPDPF data errors.

                      OIG Recommendation

                      The CMS ensures that plans' drug prices displayed on Plan Finder accurately reflect actual drug
                      co Is on Part D claims.

                      CM Recommendation

                      The CMS concurs with this recommendation. CM routinely ensure that MPDPF pric Closely
                      reflect PDE costs. As discussed earlier, the purpose of the MPDPF is to provide estimates of
                      beneficiaries' annual costs in the Part D program for plan selection and enrollment. CM 'in­
                      depth quality assurance (QA) checks and other longitudinal analyses have proven that plans'
                      estimates closely correlate to the prices paid by beneficiarie at the point-of-sale. However,
                      CM recognizes that the availability of final action claims as a limitation to comparing MPDPF
                      prices to PDE costs a a regular QA check. That is, CM would not have the data necessary on a
                      concurrent ba~is to determine that MPDPF prices were accurately reflected in PDE data. To
                      circumvent this limitation, CMS instead evaluates and ranks the similarity ofMPDPF to PDE
                      prices a one measure of the plan ratings. Introduced by CM in the fall of2006 as an MPDPF




    OEI-03-07-00600          ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                                           20
A P P E N D             I X          ~          C           





                   Page 3 - Daniel R. Levinson

                   enhancement, Plan Ratings enable Medicare beneficiaries to complete side-by-side comparisons
                   of plan cost, coverage, and quality for plan selection and enrollment. CMS also uses the plan
                   ratings for oversight and monitoring purposes to ensure plan quality. pecifically in the drug
                   pricing and patient safety category, for the measure named 'How similar a Drug Plan's estimated
                   price on the Medicare website are to prices members pay at the pharmacy," MS evaluated
                   PDE claims for drugs in the classes of clinical concern against the corresponding price displayed
                   on MPDPF. CMS' rating identified instances where the costs submitted on POE claims were
                   higher than the price displayed on the MPDPF. Therefore, plans received lower star ratings
                   when enrollec were charged higher costs than they had viewed on MPOPF. The average star
                   rating for POPs and MA-PDs was three tars, cquivalent to good performance. Organizations
                   that received one or two stars received additional oversight and monitoring actions by CMS.
                   CMS believes that this mcasure increas s the Sponsors level of accountability for submitting
                   accurate drug cost estimates for Plan Finder.

                   DIG Recommendation

                   The CMS adds a disclaimer to the Plan Findcr plan search results screen indicating that drug cost
                   estimates may differ more than "slightly" from actual drug costs.

                   eMS Response

                   The CMS does not concur with this recommendation due to the DIG report's faulty methodology
                   that incorrectly looks at the variation betwccn MOPOF and POE. When DIG's analysis was
                   limited to PDE claims for reference Des, the report found 'Plan Finder prices differed from
                   actual costs for 98 percent of claims. Plans' drug prices di played on Plan Finder were a median
                   of 22 percent (or $17) higher than actual costs on POE claims..." CM analyzed a sample of
                   over 6.9 million POE claims from 2007 and applied MPOPF data layout and relationships,
                   specifically matching the pharmacy for which the PDE was filled to the pharmacy for which the
                   MPOPF price was displayed, to compare differences between MPDPF prices and POE costs.
                   The results of eMS' analysis were significantly different from the orG report's findings. Of the
                   claims studied, 61 percent listed drug costs equal to the corresponding MPDPF price when
                   compared to the 1/1000 of one dollar. CM found that for claims with drug costs not equal to
                   MPOPF prices 13 perccnt of claims had drug costs less than MPDPF cost, and 26 percent of
                   claims had drug costs greater than MPDPF cost. In terms of the magnitude of price difference ,
                   19 percent of claims had differences of 5 percent or Ie s to the corresponding MPOPF price.
                   Only 20 percent of claims had differences greater than 5 percent from the corresponding MPOPF
                   price which on average equated to cost differences that ranged from $0.08-$1.28. Based on
                   these results, CMS asserts that the current disclaimer on MPOPF indicating that drug cost
                   estimates may differ slightly from actual drug costs is ouod, and that DIG's recommended
                   modification to the disclaimer is unwarranted.

                   However, in order to ensure that beneficiaries view pricing for a specific pharmacy location, the
                   curren! language will be revised to encourage beneficiaries to select the pharmacy they currently
                   use in order to get more precise POS pricing.




 OEI-03-07-00600          ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                                       21
A   P PEN               D       x               c




                        PlIge4 - Daniel R. Levinson

                               Curr~nt MPDPF language: Differerzt pharmacies may charge different prices for the same
                               drug. As a result, you may not find the least expensive plan ifyou select a preferred
                               pharmacy or pharmacies.                                     .

                               Modified MPDPF language: Different pharmacies can charge different prices for the
                               same drug. To get an estimate ofhow much your prescription will cost at your pharmacy,
                               select your pharmacyfrom the list below. You can pick up to two pharmacies; Jfyou
                               don 'tpick a pharmacY, the cost tha,t you see may be differentfrom the cost at your
                               pharmacy. Jfyour pharmacy iSn't in the plan's network, the c(Jstywwil1 see ·is ihefull
                               price ofthe drug with no inSUrance coverage.

                        Thank you for the -opportunity to review and commentoD this draftrepiJrt.




    OE 1·0 3·07·00600          ACCURACY OF PART D PLANS' DRUG PRICES ON PLAN FINDER
                                                                                                                        22
Δ    A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.

                  Amy Sernyak served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Philadelphia regional
                  office who contributed to this report include Tara Bernabe, Isabelle
                  Buonocore, Nancy Molyneaux, Emily Multari, and Chetra Yean; central
                  office staff who contributed include Linda Abbott, Eddie Baker, Jr.,
                  David Graf, and Rita Wurm.




OEI-03-07-00600   ACCURACY   OF   PA R T D P L A N S ’ D R U G P R I C E S   ON   PLAN FINDER
                                                                                                23
